        OFFICE OF INSPECTOR GENERAL

                                   Catalyst for Improving the Environment



Evaluation Report




        EPA Needs to Reinforce Its
        National Pretreatment Program

        Report No. 2004-P-00030


        Date: September 28, 2004
Report Contributors:                      Ira Brass
                                          Linda Fuller
                                          Anthony Chirigotis
                                          Chad Kincheloe
                                          Frank Pelczarski
                                          Elizabeth Grossman
                                          James Haller
                                          David Cofer
                                          Renee McGhee-Lenart




Abbreviations

AMSA                Association of Metropolitan Sewerage Agencies
EPA                 Environmental Protection Agency
GPRA                Government Performance and Results Act
OIG                 Office of Inspector General
NPDES               National Pollutant Discharge Elimination System
PCS                 Permit Compliance System
PER                 Permitting for Environmental Results
POTW                Publicly Owned Treatment Works
TRI                 Toxics Release Inventory




Cover Photo: Deer Island Wastewater Treatment Plant, Boston, Massachusetts
             Photo provided by Massachusetts Water Resources Authority
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL




                                       September 28, 2004

MEMORANDUM

SUBJECT:            EPA Needs to Reinforce Its National Pretreatment Program
                    Report No. 2004-P-00030


FROM:               Dan Engelberg /s/
                    Director, Water Issues
                    Office of Program Evaluation

TO:                 Benjamin Grumbles
                    Acting Assistant Administrator
                    Office of Water


This is our final report on the subject evaluation conducted by the Office of Inspector General
(OIG) of the U.S. Environmental Protection Agency (EPA). This evaluation report contains
findings that describe problems found by the OIG and corrective actions to address these
problems recommended by the OIG. This evaluation report represents the opinion of the OIG
and the findings contained in this report do not necessarily represent the final EPA position.
Final determinations on matters in this evaluation report will be made by EPA managers in
accordance with established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days of the date of this report. You should include a corrective actions
plan for agreed upon actions, including milestone dates. We have no objections to the further
release of this report to the public. For your convenience, this report will be available at
http://www.epa.gov/oig. In addition to providing a written copy of your response, please e-mail
an electronic version to Fuller.Linda@epa.gov.

If you or your staff have any questions regarding this report, please contact me at (202) 566-
0830 or Linda Fuller at (617) 918-1485.
                     Executive Summary
Purpose
           Preventing industrial pollutants from interfering with wastewater treatment
           facility operations or passing through facilities untreated into water bodies are
           functions of EPA’s pretreatment program. It is a core part of the Clean Water
           Act’s National Pollutant Discharge Elimination System (NPDES) program. The
           Agency considers the pretreatment program successful in reducing discharges of
           harmful pollutants, and this has resulted in less resources and attention being
           directed toward this program in recent years. However, toxic pollutants are still
           being transferred to sewage treatment plants, and the impact to human health and
           the environment of some of these pollutants may still not be known.

           Our objectives were to answer the following:

           •   How effectively have the pretreatment regulations controlled industrial user
               discharges?

           •   What are the differences in how publicly owned treatment works (POTWs)
               with and without approved pretreatment programs oversee their industrial
               users and do these differences affect protection of the plant and receiving
               waters?

           •   How well is EPA maintaining its program gains and addressing future needs
               and do EPA’s pretreatment program measures show the program’s progress?

Results in Brief

           The reductions in industrial waste discharges to the nation’s sewer systems that
           characterized the early years of the pretreatment program have not endured,
           according to EPA published data compiled from information provided by
           industrial facilities. Since the middle of the 1990s, there has been little change in
           the volume of a broad list of toxic pollutants transferred to POTWs or in the index
           of risk associated with these pollutants. As a result, the performance of EPA’s
           pretreatment program, which is responsible for controlling these discharges, is
           threatened and progress toward achieving the Congress’ Clean Water Act goal of
           eliminating toxic discharges that can harm water quality has stalled. The
           curtailing of the early gains may be explained in part by two factors: (1)
           dischargers that developed systems in response to EPA’s initial program
           requirements have not enhanced their pretreatment systems in recent years, and
           (2) the rate at which EPA has been issuing effluent guidelines dramatically
           declined since 1990.


                                             i
        Our review of 22 POTWs suggests that the pretreatment program should be
        extended to at least some of the POTWs without approved programs because,
        they reported having encountered more operational problems and were more
        likely to be discharging to an impaired water than POTWs with approved
        programs. Specifically, the proportion of POTWs with approved pretreatment
        programs that experienced a pass through/interference event (17 percent) was less
        than half the proportion of POTWs without approved programs (40 percent). The
        difference between the proportion of POTWs with approved programs that
        discharged to an impaired water (25 percent) was even smaller compared to the
        proportion of POTWs without approved programs that discharged to an impaired
        water (60 percent). One possible explanation is that EPA Regions and State
        agencies that are supposed to act as control authorities for POTWs without
        approved programs do not have standards for overseeing industrial users
        discharging to these POTWs. Although EPA was working on necessary guidance
        for these Regions and States, the project was put on hold due to other priorities.

        Without more visible leadership from Headquarters, improved programmatic
        information, and the adoption of results-based performance measures, EPA’s
        pretreatment program is at risk of losing the gains it made in its early years. The
        leveling off of those early gains, coinciding with EPA’s diminishing program
        emphasis, paints a picture of a program at risk. Headquarters has delayed
        finalizing guides and regulations intended to update the pretreatment program by
        not allocating sufficient resources or requesting budget increases for additional
        pretreatment resources. Additionally, results-based performance measures on
        pretreatment program activities have not been developed partially due to the lack
        of adequate, accessible data. As a result, POTWs’ pretreatment programs may
        not be as effective in protecting environmental quality or worker health and safety
        as they could be, and EPA cannot assess the effectiveness of its pretreatment
        program.

Recommendations

        We recommend that the Acting Assistant Administrator for Water take stock of
        the pretreatment program by determining a meaningful performance measure that
        entails continued improvement, establishing a mechanism to achieve that goal,
        and, lastly, acquiring additional resources to implement necessary programmatic
        improvements. Specifically, staff should be directed to finalize necessary
        guidance, set oversight standards for Regions and States designated as control
        authorities, encourage the incorporation of pretreatment oversight responsibilities
        in the NPDES permits of POTWs without approved programs as circumstances
        allow, and promote training opportunities. The Acting Assistant Administrator
        should direct staff to evaluate the resource needs of the pretreatment program to
        enable it to make further reductions in industrial waste transfers and risk. The
        additional funding should be requested in the next funding cycle.


                                         ii
Agency Comment and OIG Evaluation

         In an August 30, 2004 response to our draft report, the Acting Assistant
         Administrator for Water acknowledged our findings that environmental benefits
         are derived from the POTWs’ implementation of the pretreatment program. The
         Acting Assistant Administrator stated that the Office of Water was in the process
         of conducting the most comprehensive assessment of the NPDES Program in its
         30-year history (Permitting for Environmental Results, or PER Strategy) and that
         one component of its resulting strategy would help to address several of our
         recommendations. We have summarized the Agency’s response and our
         comments at the end of each chapter. The Acting Assistant Administrator’s
         memorandum is attached as Appendix G. A clarification attachment provided by
         the Agency is on file at the Office of Inspector General. An exit conference was
         held on September 2, 2004.

         The Office of Water’s efforts to assess and improve its NPDES program as part of
         its PER Strategy are commendable. Since action for carrying out several of our
         recommendations is dependent on completion of this strategy, we are revising our
         recommendations to provide milestone dates for action and quarterly progress
         reports for actions not completed within 90 days of report issuance. We have also
         made other revisions as appropriate based on the Agency’s clarification
         document.




                                         iii
iv
                                      Table of Contents
Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        i



 Chapters

          1         Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     1

          2         Pretreatment Program Gains Have Leveled Off . . . . . . . . . . . . . . . . . . . .                                5

          3         More POTWs Need to Adopt National
                    Pretreatment Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              11

          4         Pretreatment Program Needs Improved Direction,
                    Data, and Performance Measurements . . . . . . . . . . . . . . . . . . . . . . . . . . .                         21



 Appendices
          A         Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       29

          B         Basic Pretreatment Program Elements . . . . . . . . . . . . . . . . . . . . . . . . . .                          33

          C         Oversight of Industrial Users by POTWs
                    Without Approved EPA Pretreatment Programs . . . . . . . . . . . . . . . . . . .                                 35

          D         Examples of Enforcement Efforts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    37

          E         Gaps in Industrial User Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  39

          F         POTW Industrial Pollutant Trends . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   41

          G         Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43

          H         Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47




                                                                   v
                                Chapter 1
                                 Introduction
Purpose

          The focus of the Environmental Protection Agency (EPA) clean water program is
          reducing pollutant loadings. There are hundreds of thousands of industrial users
          in the United States, and many may discharge toxic pollutants to wastewater
          facilities. Preventing industrial pollutants from interfering with wastewater
          treatment facility operations or passing through facilities untreated to water
          bodies are functions of EPA’s National Pretreatment Program, a core part of the
          Clean Water Act’s National Pollutant Discharge Elimination System (NPDES)
          program.

          One of the 2003 Office of Water priorities is to “conserve the gains of the last
          30 years.” The Agency considers the pretreatment program successful in
          reducing discharges of harmful pollutants to wastewater facilities and their
          receiving waters. This success has resulted in less resources and attention
          directed toward this program in recent years, even though toxic pollutants are still
          being transferred to sewage treatment plants.

          Our objectives were to answer the following:

          •   How effectively have the pretreatment regulations controlled industrial user
              discharges?

          •   What are the differences in how publicly owned treatment works (POTWs)
              with and without approved pretreatment programs oversee their industrial
              users and do these differences affect protection of the plant and receiving
              waters?

          •   How well is EPA maintaining its program gains and addressing future needs
              and do EPA’s pretreatment program measures show the program’s progress?

Background

          Following scenes of dying fish and burning rivers in the 1950s and 1960s,
          Congress in 1972 passed the Clean Water Act to restore and maintain the integrity
          of the nation’s waters. EPA established the NPDES program to achieve these
          goals. The program regulates facilities such as POTWs, which discharge directly
          to surface waters.




                                           1
In addition to receiving wastewater from homes, POTWs may also receive
industrial waste from manufacturing sources. Because industrial waste can
disrupt a POTW’s operations (“interference”) or pollute the POTW’s receiving
water and cause an NPDES
violation (“pass through”), the
pretreatment program was                 National Pretreatment Program Objectives
established as a component of the
NPDES program to control these          • Prevent interference with POTW operations
                                        • Prevent the pass through of pollutants
discharges. The general                 • Improve biosolids recycling and reuse
pretreatment regulation                   opportunities
promulgated on June 26, 1978,
required certain POTWs to                               Figure 1(A)
develop pretreatment programs to
control the introduction of
industrial wastes into POTWs. These program requirements are included in the
POTW’s NPDES permit. The National Pretreatment Program objectives are in
Figure 1(A).

The pretreatment program is implemented through a partnership of EPA, State
agencies, and POTWs. POTWs usually have the prime responsibility for
implementing and enforcing the program, and are known as “control authorities.”
EPA Regions or a State agency authorized to administer pretreatment programs
approve a POTW’s pretreatment program are known as “approval authorities.”
Currently, there are approximately 1,500 approved pretreatment programs. EPA
Regions or State agencies may also act as control authorities if POTWs are
unauthorized or the agency deems it more efficient to administer the program.
Regions and States include pretreatment program requirements as part of a
POTW’s NPDES permit; these permits are the mechanism used to regulate
POTW discharges to surface waters.

Control authorities must implement their program in accordance with
pretreatment regulations. An approved pretreatment program includes the
following basic program elements:

•   Legal authority.
•   Procedures for maintaining and updating an inventory, issuing permits, and
    conducting inspections and sampling.
•   Developing and updating local limits.
•   Developing and implementing an Enforcement Response Plan.
•   Submitting a list of significant industrial users (usually as part of the annual
    pretreatment report.

Control authorities should also ensure that their industrial users are following
appropriate discharge standards, as noted in Table 1.1:



                                  2
                                        Table 1.1: Discharge Standards

                   Pretreatment Standard                             Applicable Industrial User

          Prohibited Discharge Standard:
              Prohibit the discharge of substances that          All industrial users subject or not to
              could cause:                                       any other National, State, or local
              • fire or explosions,                              requirements.
              • corrosive structural damage,
              • obstruction of flow,
              • toxic vapors, or
              • other harmful effects.

          Categorical Standards:
              National, uniform, technology-based standards.     Specific industrial groups.

          Local Limits:
                Address specific needs and concerns of           Typically, all industrial users
                the POTW and its receiving water.                discharging to the POTW.




Scope and Methodology

         We reviewed data from EPA’s Toxics Release Inventory and Permit Compliance
         Systems, as well as annual pretreatment reports prepared by POTWs, to determine
         trends in transfers of pollutants. We interviewed staff from EPA, State agencies,
         and POTWs to evaluate program oversight and measurement. Our field work was
         conducted from March 21, 2003, to February 27, 2004, in accordance with
         Government Auditing Standards, issued by the Comptroller General of the United
         States. Additional details on our scope and methodology can be found in
         Appendix A. No recent audit or evaluation reports have been issued on EPA’s
         National Pretreatment Program.




                                               3
4
                                Chapter 2
     Pretreatment Program Gains Have Leveled Off
          The reductions in industrial waste discharges to the nation’s sewer systems that
          characterized the early years of the pretreatment program have not endured
          according to EPA published data compiled from information provided by
          industrial facilities. Changes in the amount of pollution that industrial users
          discharge into sewers is a good indication of how successful this program has
          been. Measured by volume as well as an index of risk associated with a broad list
          of toxic pollutants, there has been little change since the middle of the 1990s. As
          a result, the performance of EPA’s pretreatment program, which is responsible for
          controlling these discharges, is threatened and progress toward achieving the
          Congress’ Clean Water Act goal of eliminating toxic discharges that can harm
          water quality has stalled. The curtailing of the early gains may be explained in
          part by two factors: (1) dischargers that developed systems in response to EPA’s
          initial program requirements have not enhanced their pretreatment systems in
          recent years, and (2) the rate at which EPA has been issuing effluent guidelines
          dramatically declined since 1990.

Trends in Industrial User Discharges

          We determined the pretreatment program’s progress in reducing industrial user
          discharges on a national basis using EPA’s Toxic Chemical Release Inventory
          System [i.e., Toxics Release Inventory (TRI)]. This is a publicly available
          database that contains information on toxic chemical releases provided by certain
          industry groups. We also determined the trends in relative risk of these pollutants
          using EPA’s Risk-Screening Environmental Indicators.

          Following are charts detailing our various TRI analyses. However, it should also
          be noted that the TRI database is subject to error. OIG Report No. 2004-P-00004,
          EPA Should Take Steps to Improve Industrial Reporting to the Toxics Release
          Inventory System, February 2, 2004, identified TRI reporting errors by industries
          that significantly altered our initial conclusions. The charts presented include our
          corrections. Additionally, EPA’s Office of Enforcement and Compliance
          Assurance issued The National Nitrate Compliance Initiative in April 2002 which
          noted that many facilities were not reporting the transfer of nitrates to TRI.
          According to EPA, the initiative improved reporting from 60 to 98 percent in
          recent years. This problem did not affect our final analysis since we subtracted
          nitrates.




                                           5
Transfer of Pollutants

The transfer of pollutants to POTWs decreased by approximately 50 percent from
1987 to 1995, then climbed up again by approximately 100 percent from1995 to
2001. Figure 2(A) shows that the increase was the result of requirements for the
reporting of additional pollutants starting in 1995. Pollutants reported
consistently from 1987 to 2001 show a leveling off in transfers since 1995.



                               Trends in Pollutant Transfers to POTWs
                                1987 Original Pollutants      Pollutants added to TRI in 1995

                         350
                         300
    Pounds in Millions




                         250
                         200
                         150
                         100
                         50
                          0
                               1987    1989            1991   1993     1995      1997     1999    2001

Figure 2(A): Transfer of pollutants to POTWs increased starting in 1995.


For pollutants added since 1995, we found another subset to explain the increase.
Nitrate compounds – a pollutant that POTWs incidentally treat – were responsible
for the significant increase in transfers since 1995. Figure 2(B) shows that when
we removed nitrate compounds from the table, there is a leveling off of transfers.
Figure 2(B) also shows that trends for transfers were mirrored by manufacturing
activity, suggesting that the decreases and leveling off of transfers were not the
result of
decreased                                Trends in Discharges to POTWs
productivity. In
fact, the 2001           300,000,000

Annual Survey of         250,000,000

Manufacturers            200,000,000
                                              Pounds




reports that             150,000,000
manufacturing            100,000,000
activity increased
                          50,000,000
from 1987 to
                                   0
2001.                                1987   1989   1991   1993   1995 1997 1999 2001

                                                                               Loadings    Normalized by Manufacturing

                                           Figure 2(B): Transfers leveled off since 1995 without nitrates even when
Risk                                       economy considered.




                                                                  6
After a significant decrease from 1987 to1988, the risk associated with pollutants
tracked in TRI since 1987 shows no apparent trend, while the risk associated with
pollutants added since 1995 has been increasing. We used EPA’s Risk-Screening
Environmental Indicators to assess the potential impact related to oral ingestion
toxicity of the industrial releases to POTWs. Our analysis considered the
following information: the amount of chemical released, the toxicity of the
chemical, its fate, and transport through the environment.

Figure 2(C) shows that the risk associated with the 1987 chemicals was reduced
by 60 percent from 1987 to 1988. Risk showed a further decrease in 1995, with
some increases in 1998, 1999, and 2001. This figure does not include individual
discharges that could materially affect the results of our review (such as a single
plant in Tennessee discharging thorium dioxide, which significantly increased the
risk during 1995 and 1996; thorium dioxide is a radioactive substance that has the
highest toxicity weight among the TRI pollutants).




                                 "Ris k " D u e to T RI D is c h a rg e s to P O T Ws
                                                (o rig in al p o llu tan ts)

                         6,000

                         5,000
   Factors in Millions




                         4,000

                         3,000

                         2,000

                         1,000

                             0
                                 1987    1989    1991       1993        1995   1997   1999   2001


Figure 2(C): Risk reduced since 1987.



Our analysis of the 1995 pollutants showed the risk of these pollutants increasing
even when we eliminated single facilities discharging highly toxic pollutants that
caused significant increases in 2000 and 2001. See Figure 2(D).




                                                             7
                                                          Trends in Risk
                                          (minus bromine, dimethylamine, and nitrapyrin)

                                    100

              Factors in Millions
                                     80
                                     60
                                     40
                                     20
                                      0
                                            1995   1996   1997       1998   1999   2000   2001

                                                                     Year


          Figure 2(D): Risk associated with 1995 pollutants increased.

Enforcement of Regulations as Motivating Factor

          The significant drop in the transfer of pollutants during the late 1980s may be
          explained in part because EPA issued most of it regulations during the 1970s and
          1980s. Our sample of industrial users indicated that most were still using their
          original pretreatment systems from this period.

          In 1997, EPA’s Assistant Administrator for Water attributed the progress made in
          improving water quality as the result of technology-based effluent guidelines
          implemented through the NPDES program, and the Federally funded construction
          of sewage treatment plants. Effluent guidelines are industrial water pollution
          control regulations for facilities discharging directly to surface waters and
          indirectly to POTWs. “Categorical standards” are issued for indirect dischargers
          through the National Pretreatment Program. Prior to 1991, when there was the
          first drop in transfers, EPA had issued 49 effluent guidelines; since that time to
          1999, only 7 new and revised effluent guidelines were issued. This may explain
          the initially significant drop in pollutant transfers and then a leveling off period.

          Our interviews with representatives from 16 companies showed that companies
          installed pretreatment systems in response to regulations, and most maintain
          original systems going back to the 1980s. Of the 16 companies, 14 have a
          pretreatment process. Of those 14:

          •   One said their pretreatment system went back to the 1970s.
          •   Eight said their system went back to the 1980s.
          •   One said their system went back to 1991.
          •   Three said their system was approximately 10 or less years old.
          •   One did not know the age of the system.



                                                                 8
         Of the 10 companies which knew their system was 10 or more years old, one
         made a change in 2001 to meet new categorical regulations and another made a
         change to prevent a Safe Drinking Water Act violation. Due to the age of the
         industrial users’ pretreatment systems and the length of service of the staff
         contacted, not everyone could explain why their companies installed pretreatment
         systems. However six did indicate that their pretreatment systems were required
         by their POTWs and one by the Clean Water Act.

         Representatives indicated regulations certainly had an impact on actions taken.
         For example:

         •   A representative for a Minnesota firm indicated that regulations provided the
             impetus for companies to change operations because the financial staff would
             otherwise question the purchase of equipment not contributing to profit. The
             official noted the company still uses tin/lead solder because it is requested by
             their customers and will continue to use it unless it becomes illegal.

         •   A representative for an Indiana firm stated that what finally motivated the
             company to eliminate the use of chromium was to address a Safe Drinking
             Water Act violation caused by its discharge of fluoride to its local POTW.
             This company and others were allowed to discharge fluoride to the POTW in
             accordance with the local pretreatment program. However, the fluoride was
             discovered downstream to be in excess of drinking water standards. This
             Indiana firm was subsequently awarded the 2002 Indiana Governor’s Awards
             for Environmental Excellence for eliminating the chromate conversion
             coating process that resulted in fluoride discharges. According to the local
             POTW superintendent, having a pretreatment program in place made it easier
             to identify the polluting companies, require monitoring, and work with the
             firm.

Conclusion

         The reduction in transfers of toxic pollutants to POTWs has not been reduced
         since the mid 1990s. The reduction of risk for oral ingestion for some of these
         pollutants shows no apparent trend indicative of progress. Significant reductions
         in transfers were seen in prior years when EPA was active in establishing its
         pretreatment program and issuing numerous effluent guidelines. EPA needs to
         take stock of its pretreatment program to determine how it will eventually fully
         meet Congress’ goal of the elimination of toxic discharges to the nation’s waters.
         Otherwise, wastewater treatment facilities remain vulnerable to industrial waste
         discharges that can disrupt plant operations or pass through to receiving waters,
         resulting in poor water quality and potential harm to human health and the
         environment.




                                           9
Agency Comment and OIG Evaluation

         The Agency noted that many reportable pollutants are able to be treated by typical
         POTW biological processes and the receipt of large transfers of these pollutant
         may be somewhat misleading. They suggested that an analysis of incompatible
         pollutants (metals, cyanide, and organics) that are the focus of the pretreatment
         program would be a better assessment of the effectiveness of the pretreatment
         program. The Agency also believed that our conclusion did not adequately note
         the changes in TRI reporting requirements or link the risk for oral ingestion of
         indirectly discharged industrial process wastewater to the disruption of POTW
         operations.

         Our review was broad in nature to give an overall picture of EPA’s efforts to
         implement its pretreatment program. It was not our intent to provide detailed
         reviews of particular industries or pollutants. We believe that our review shows
         that when EPA applied resources to implementing its pretreatment program,
         reductions in transfers of toxic pollutants resulted. As the program received less
         attention and resources, those results leveled off. The Office of Water may want
         to conduct on its own the further analyses it suggested as part of its development
         of performance measures or to identify areas needing additional attention.

         While our review did include transfers from new industrial sectors and lowered
         reporting thresholds for persistent, bioaccumulative chemicals, these differences
         did not significantly impact our figures. Our conclusion regarding the risk for
         oral ingestion does not make a link to the disruption of POTW operations. We
         are only stating that we do not see any indications of reduced pollutant toxicity.




                                          10
                               Chapter 3
  More POTWs Need to Adopt National Pretreatment
                   Programs
         Our review of 22 POTWs suggests that the pretreatment program should be
         extended to at least some of the POTWs without approved programs because,
         they reported having encountered more operational problems and were more
         likely to be discharging to an impaired waters than POTWs with approved
         programs. Specifically,

         •   The proportion of POTWs with approved pretreatment programs that
             experienced a pass through/interference event (17 percent) was less than half
             the proportion of POTWs without approved programs (40 percent).

         •   The difference between the proportion of POTWs with approved programs
             that discharged to an impaired water (25 percent) was even smaller compared
             to the proportion of POTWs without approved programs that discharged to an
             impaired water (60 percent).

         One possible explanation is that EPA Regions and State agencies that are
         supposed to act as control authorities for POTWs without approved programs do
         not have standards for overseeing industrial users discharging to these POTWs.
         Although EPA was working on necessary guidance for these Regions and States,
         the project was put on hold due to other priorities. Some Regional staff also
         indicated that such POTWs receive less of a priority because they are small and
         their discharge probably will not have a significant impact on the receiving
         waters. However, our observation that a significant number of POTWs without
         pretreatment programs discharge into waterbodies that fail to meet water quality
         standards suggests that some of these systems would benefit from additional
         controls similar to those imposed on POTWs with pretreatment programs. Also,
         industries in such communities may be receiving an unfair advantage over their
         competitors that receive more monitoring.

POTWs with Pretreatment Programs More Likely to Meet Standards

         With some exceptions, the 12 POTWs with approved pretreatment programs we
         contacted indicated that they administer their programs in accordance with EPA
         pretreatment regulations. Such consistency derives from these POTWs having
         standard guidance to follow and being subject to EPA and State audits that
         reinforce standards. For the 10 POTWs contacted that did not have pretreatment
         programs, 6 of the POTWs nonetheless carried out program elements comparably




                                         11
to POTWs with approved programs. Those six POTWs had pretreatment program
requirements included in their NPDES permits by State agencies.

Table 3.1 compares how well POTWs from both the approved and non-approved
pretreatment groups met minimum pretreatment standards. Using EPA’s 1999
guide, Introduction to the National Pretreatment Program, as a model, we
identified six basic elements needed to administer an approved pretreatment
program. Our use of the phrase “required program element” differs slightly from
EPA’s use of the phrase identified on page 2. Our review emphasized POTW’s
implementation of the program; we did not evaluate legal authority or funding.
We obtained the respondents’ information from questionnaires and site visits to
the POTWs, Regions, and State agencies. For the POTWs visited, we also
reviewed, if available, their annual pretreatment reports, Regional/State audit
reports, and other related documents. The six elements are listed in Table 3.1.
Further details on each of the six elements, including the importance of each and
findings, are in Appendix B; a breakdown on actions taken for each location by
element are in Appendix C.

       Table 3.1: Comparison of POTWs in Meeting Minimum Pretreatment Standards

                                                         Approved         Non-approved
        Required                      Criteria           Programs           Programs
     Program Element             (40 CFR Section)    (12 Respondents)   (10 Respondents)

 Identify industrial users       §403.8(f)(2)(I)          100%                80%

 Develop Local Limits            §403.8(f)(4) and         83.3% *             60%
                                 122.21(j)(4)

 Issue individual permits to     §403.8(f)(1)(iii)        100%                50%
 significant industrial users

 Inspect and sample industrial   §403.8(f)(2)(v)
 users annually at a minimum
       - Inspect                                              100%            70%
       - Sample                                               100%            50%
 Have approved Enforcement       §403.8(f)(5)             91.7%          Not Applicable
 Response Plans

 Submit Annual Pretreatment      §403.12(I)                   100%            70%
 Report

    * The remaining two POTWs were developing local limits.


For four of the required program elements (issuing individual permits to
significant industrial users, inspecting and sampling industrial users, having
approved enforcement response plans, and submitting annual pretreatment
reports), the probability that POTWs with approved program would meet these
minimum standards if program approval made no difference is less than 0.05. For
two of the seven required program elements (identifying industrial users and



                                      12
developing local limits), the probability that POTWs with approved plans would
have these minimum standards if program approval made no difference
approaches statistical significance (p < 0.083). This means that for the 22
POTWs reviewed, having an approved plan is statistically, significantly more
likely to result in POTWs meeting at least some of the minimum standards than if
there were no approved program.

The applicability of this finding to the entire population of POTWs nationwide is
limited. This is due, in part, to the small sample size and in part to the selection
criteria used to choose POTWs for this study. While most of the POTWs were
selected at random within specific Regions, one POTW with an approved
program was selected because EPA officials described it as a “good” program.
Another POTW without an approved program was selected because EPA
indicated the POTW was having problems. Even when these two facilities are
excluded from the analysis, however, five of the applicable criteria approach or
achieve statistical significance (p < 0.63). With these two POTWs excluded from
the analysis, the identification of industrial users is the only minimum standard
likely to be met regardless of whether or not a facility has an approved program.

For our selected POTWs, we attempted to determine what benefits a POTW can
derive from maintaining an approved pretreatment program by comparing the
reported number of pass through/interference events between the approved/non-
approved POTWs and identifying which POTWs discharged to an impaired
water. Table 3.2 summarizes the results of our questionnaire responses and our
review of EPA’s WATERS data base reporting water bodies identified as being
on the State 303(d) impaired water list. Information on the WATERS data base
has limitations. States only report 303(d) impairments for assessed waterbodies,
and most waterbodies are not assessed. Additionally, further analyses should be
done before determining an actual causal relationship between the POTW source
and the impaired waters. However, given the limitations in data availability, we
believe our analysis can provide a general indication of results.


            Table 3.2: Summary - Pass Through/Interference, Impaired Waters

                                               12 POTWs With        10 POTWs Without
                                             Approved Programs      Approved Programs

                                              No. of   Percentage    No. of   Percentage
                                             POTWs      of Total    POTWs      of Total

 Reported pass through/interference            2          17%         4          40%
 within past 2 years

 Discharging to 303(d) impaired water          3          25%         6          60%




                                        13
         The probability that 17 percent or fewer of the POTWs with approved programs
         would experience a pass through/interference event in the past two years if having
         an approved program made no difference is 0.83. The probability that 25 percent
         or fewer of the POTWs with approved programs would discharge to an impaired
         water is 0.015. This indicates that for the 22 POTWs selected, having an
         approved program has an effect on whether or not a POTW will experience a pass
         through/interference event or discharge to an impaired water.

         When the two POTWs described above are excluded from the analysis, having an
         approved program does not appear to affect whether a facility will experience a
         pass through/interference event (p = 0.234), but having an approved program is
         still significantly less likely to result in a POTW discharging to an impaired water
         (p = 0.013).

         Waters on the 303(d) list may be impaired from sources other than POTWs
         passing industrial or non-industrial pollutants. Even when industrial pollutants
         are reported as the cause, the source of impairment is often not reported, so it is
         not easy to draw a direct correlation between an impaired water and a POTW’s
         pretreatment program. For POTWs with approved programs, two of the three
         receiving waters were impaired due to metals and other pollutants; for POTWs
         without approved programs, three of the six waters were impaired due to metals
         and other pollutants. EPA’s WATERS database provided the source of
         impairment for only one of the nine impaired receiving waters.

POTW Program Implementation Can Be Improved for Two Elements

         While the results of our survey questionnaire indicated general consistency in
         implementation for POTWs with approved programs, our review of State audit
         reports and interviews with POTW staff indicated that the elements of identifying
         industrial users and enforcement could be improved especially for smaller sized
         POTWs. EPA can help these POTWs by expanding the training it already
         provides and ensuring that there are adequate resources available to conduct
         audits of POTW pretreatment programs.

         Identifying Industrial Users

         Small to medium-sized POTWs indicated that classifying industries was
         sometimes difficult because the regulations may be too complex to understand.
         For example, the Texas Natural Resource Conservation Commission reported in
         its audit of Brenham, Texas, a small-sized POTW, that it continued to experience
         difficulties in making categorical determinations. By not properly classifying
         industrial users, appropriate permits were not issued and enforcement taken.
         Other pretreatment coordinators at POTWs agreed that it can be difficult to stay

         current with regulations and to apply them, particularly in determining whether an


                                          14
industry is a categorical industrial user.

Enforcement

Review of annual pretreatment reports to determine whether POTWs were
escalating enforcement actions (e.g., administrative orders, fines, etc.) disclosed
that while the two selected large-sized POTWs reviewed showed evidence of
escalating enforcement, the medium to small-sized POTWs varied in their efforts.
POTWs without approved programs are not required to develop Enforcement
Response Plans and may not have authority to take formal enforcement actions.
All 10 POTWs contacted stated they notify industrial users of any violations and
usually resolve any issues by phone, meeting, or mail, but few indicated they
escalate action to a higher level. Only three indicated that formal actions such as
Administrative Orders had been issued. Examples on enforcement issues are in
Appendix D.

Training

In addition to guidance, training is a way to promote program consistency. EPA
Headquarters provides basic and advanced pretreatment classes nationally. Some
of the Regions also provide pretreatment training, as do most of our selected
States. However, three of the six States, as well as some POTW officials, said
EPA should provide more training, and one also recommended that EPA develop
pro forma documents to assist POTWs in developing local limits. These
responses indicate that EPA needs to more clearly communicate to POTWs what
training is available. In addition, EPA may want to look into providing on-line
training.

Audits

Regional and State audits of POTW-approved pretreatment programs ensure that
these programs are maintaining standards and provide indirect scrutiny of
industrial users. EPA’s Government Performance and Results Act (GPRA) goal
was for Regions and States to both audit 100 percent of programs over a 5-year
period (20 percent is the Annual Performance Goal within GPRA measures).
EPA’s Office of Water could provide only limited data on attainment of this goal,
which shows that not all the Regions/States were meeting the GPRA goal. For
fiscal years 2000 and 2002, six Regions conducted audits of at least 20 percent of
their approved programs. Regions 1, 5, 9, and 10 did not meet the goal for fiscal
year 2000, while Regions 1, 3, 4, and 10 did not meet it for 2002. Since Regions
1 and 10 did not conduct 20 percent of the audits for either year, there is the
possibility that they may not meet the 100-percent goal over a 5-year period.
Region 1's pretreatment coordinator had written in a 1999 memorandum to
Headquarters that he could not meet the 20 percent annual goal because resources
had been reduced from six full-time equivalents in 1995 to one by 1999.


                                  15
Regional and State Support and Oversight Can Be Improved for
POTWs Without Approved Programs

          Regions and State Agencies support POTWs that have approved programs by
          providing various training opportunities and overseeing their activities with
          audits, and this helps to promote greater national consistency. We found less
          consistency in support of POTWs without approved programs. Regions and
          States cannot always oversee industrial users discharging to POTWs without
          approved programs and such POTWs may or may not be required by their State or
          Region to oversee their industrial users. To ensure greater national consistency,
          EPA needs to finalize the guidance it has put on hold to address this area.

          Regions and State Agencies as Control Authorities

          Regions and State Agencies, as control authorities, are not required to implement
          their activities at the same frequency as imposed on municipalities who
          implement their approved programs. We found that few of those we reviewed
          inspected or sampled industrial users in accordance with standards required of
          POTWs. This is due to the large universe of industrial users spread throughout a
          State and the limited amount of State and Regional staff. If Regions or States are
          not adequately monitoring these industrial users, their operations and workers are
          vulnerable to toxic discharges causing disruptions and injury. Some States have
          recognized their limitations and have included oversight responsibilities in these
          POTWs’ NPDES permits. EPA had been working on developing guidance for
          overseeing categorical and significant industrial users discharging to POTWs
          without approved programs, but has put it off due to other priorities.

          Appendix E shows how selected EPA Regions and State Agencies oversee
          industrial users when they are designated as the control authority. Except for
          New Jersey and Ohio, Regions and States do not inspect and sample in
          accordance with pretreatment standards required for POTWs.

          We found that States added pretreatment program requirements in the NPDES
          permits of POTWs without approved EPA pretreatment programs. This is one
          way to address the States’ ability to adequately oversee the great number of
          significant industrial users discharging to POTWs without approved programs.
          EPA does not know how many significant industrial users discharge to POTWs
          without approved programs, but has determined that over 28,000 significant
          industrial users (of which approximately 13,000 are categorical industrial users)
          discharge to POTWs with approved programs. This figure gives an indication of
          how vast the universe is for monitoring industrial users.

          As an example, the Texas Commission of Environmental Quality staff estimated
          that there are a potential 1,750 industrial users discharging to POTWs without


                                          16
         approved programs, of which only 24 (or 1.4 percent) are reporting to the State.
         State officials advised us that when Region 6 transferred pretreatment program
         delegation to the State in 1998, categorical industrial users discharging to POTWs
         without approved pretreatment programs were not adequately identified. The
         State has been in the process of identifying these industrial users since 1998.

         States Require POTWs Without Approved Programs to Assume
         Oversight Responsibilities

         Table 3.1 shows that POTWs with approved pretreatment programs are more
         likely to carry out minimum pretreatment programs. However, further analysis of
         our 10 POTWs without approved programs showed that six of these POTWs had
         pretreatment oversight responsibilities included in their NPDES permits by the
         State. Each of these six POTWs carried out the program elements with few
         exceptions (See Appendix C). All six stated they had developed local limits,
         which is better than the 10 of 12 selected POTWs with approved programs. Only
         one of the six (17 percent) experienced a pass through event, which is the same
         observed among approved program groups (also 17 percent). Two of the six (33
         percent) discharge to an impaired water compared to three of the 12 (25 percent)
         for the approved group.

         Of the remaining four POTWs that did not have any pretreatment program
         requirements, few carried out all the program elements. None of the four had
         developed local limits. Three of the four experienced a pass through/interference
         event and all four discharged to an impaired water (see Appendix C).

         When appropriate, requiring POTWs to assume more oversight activities appears
         to be beneficial to both the Regions/States as well as the POTW. Nonetheless, the
         Regions and States will still need to provide oversight to ensure that appropriate
         formal enforcement is taken. Requiring these POTWs to submit an annual
         pretreatment report, including information on violators, could alert State and
         Regional officials of potential enforcement issues.

Conclusion

         Based on our study of 22 POTWs, we conclude that POTWs do not develop
         pretreatment programs to control their industrial users unless required by EPA or
         a State Agency. Our study shows POTWs with approved pretreatment programs
         are more likely to meet most of the minimum program requirements than POTWs
         without approved programs. These POTWs are also less likely to experience pass
         through/interference events and to discharge to an impaired water compared to
         POTWs without approved programs. Although this study does not permit us to
         determine cause and effect, it is reasonable to believe that meeting the minimum
         program standards of an approved pretreatment program is likely to result in
         fewer pass through/interference events. We cannot link the cause of an impaired


                                         17
         water body to a POTW’s implementation of a pretreatment program. However,
         our sampled POTWs without approved programs were more likely to discharge to
         an impaired water indicating a need for such POTWs to be concerned with the
         quality of their discharge. As a result, we believe POTWs without approved
         pretreatment programs should be encouraged to oversee their industrial users.
         Especially, since we found that EPA Regions and States acting as control
         authorities cannot always oversee to the same level as POTWs with approved
         pretreatment programs. EPA needs to complete its guide on overseeing industrial
         users discharging to POTWs without approved pretreatment programs. However,
         even when POTWs assume greater oversight responsibilities, EPA and States
         must still play a role in ensuring that POTWs understand regulations, which are
         sometimes complex, and that POTWs are taking appropriate enforcement actions.

Recommendations

         We recommend that the Acting Assistant Administrator for Water direct staff to:

          3.1   Finalize its guidance on regulating industrial users discharging to a POTW
                without an approved program and provide milestones for doing so to the
                OIG. This guidance should provide recommended frequency of various
                oversight activities such as inspections and sampling. If the Office of
                Water cannot finalize its guidance within 90 days of report issuance, it
                should provide quarterly progress reports to the OIG until this action is
                complete.

          3.2   For Regions and States unable to follow EPA’s guidance for basic
                oversight of industrial users discharging to POTWs without approved
                programs, encourage the Regions/States to have these POTWs assume
                oversight responsibilities as part of their NPDES permit requirements.

          3.3   Encourage Regions/States to have POTWs without approved programs
                that are conducting oversight responsibilities to report on an annual basis
                violations and enforcement action taken to their control/approval
                authority.

          3.4   Promote training opportunities to all POTWs by determining: a) the
                POTWs’ ability to access information on EPA’s website and b) the types
                of training POTWs need.



Agency Comment and OIG Evaluation

         The Office of Water staff agreed that guidance on tracking, overseeing, and
         controlling significant industrial users is important to ensure achievement of the


                                          18
pretreatment program’s goals. As part of its comprehensive assessment of the
NPDES program, the Office of Water will document Regional and State oversight
capabilities and develop a “toolbox” based on how Regions and States are
overseeing industrial users discharging to POTWs without approved pretreatment
programs. The toolbox, along with the development of standardized accounting
of these significant industrial users will assist in future oversight.

The Office of Water also stated that the pretreatment regulations do not impose
minimum inspection or sampling frequencies on EPA Regions and States in either
their roles as Approval or Control Authorities.

The Office of Water believed that reporting of significant industrial user problems
in NPDES permit applications and categorical industrial user reporting of non-
compliance is adequate for notifying Regional/State control agencies of
violations. It was additionally pointed out that POTWs without approved
pretreatment programs do not always have enforcement authority and that it is the
responsibility of the permitting authority to increase reporting beyond the current
regulations, determined on a case-by-case basis.

The Office of Water agreed that training is key to maintaining pretreatment
program knowledge and has been discussing with Regions/States the need for
improved publicity of available training.

Our finding indicated that pretreatment programs do benefit POTWs and their
receiving waters. First, we believe that EPA should set standards for
Regions/States acting as control authorities; they should set an example to
POTWs. Second, in cases where the Regions/States cannot meet this standard,
they should encourage the Regions/States to allow POTWs without approved
programs to assume oversight responsibilities. We found State agencies have
taken the initiative in expanding the benefits of the pretreatment program to
POTWs that normally would not be candidates for approved program status.
However, we believe EPA should lead the effort to expand this protection by
issuing guidance documents encouraging permitting agencies to do so. EPA’s
lead should provide for more national consistency.

When POTWs without approved programs assume pretreatment oversight
responsibilities, they should also be required to submit annual reports on
violations and enforcement action for two reasons. 1) Because such POTWs may
not have enforcement authority, the control agency needs to be aware of
enforcement activity. 2) Current reporting mechanism do not ensure that the
control authority receives timely and objective information to ensure that timely
and appropriate enforcement has occurred. NPDES permit applications that
identify problems with significant industrial users are reviewed at best every four
and one-half years. With the current backlog, reviews are probably taking longer.
Reporting by categorical industrial users is a self-reporting mechanism.


                                19
20
                                Chapter 4
   Pretreatment Program Needs Improved Direction,
           Data, and Performance Measures
          Without more visible leadership from Headquarters, improved programmatic
          information, and the adoption of results-based performance measures, EPA’s
          pretreatment program is at risk of losing the gains it made in its early years. The
          leveling off of those early gains, along with EPA’s diminished emphasis on the
          program, paints a picture of a program at risk. Headquarters has delayed
          finalizing guides and regulations intended to update the pretreatment program by
          not allocating sufficient resources to complete these projects because resources
          were assigned to newer, developing programs such as homeland security and
          storm water. However, EPA did not request additional funding to cover the needs
          of its pretreatment program. As a result, POTWs’ pretreatment programs may
          not be as effective in protecting environmental quality and worker health and
          safety as they could be, and EPA cannot assess the effectiveness of its
          pretreatment program.

Developing a High Performance Organization Evaluated

          In evaluating how well EPA is maintaining pretreatment program gains and
          addressing future needs, we used criteria from GPRA, the Malcolm Baldrige
          Award Program, and EPA. Specifically, based on what we were reviewing, we
          evaluated EPA’s performance in three of the seven key areas based on the
          Baldrige program’s criteria: leadership, information and analysis, and
          performance results.

          EPA Can Improve Leadership

          EPA can improve its leadership functions – such as modifying regulations,
          developing technical guidance, and overseeing program implementation – by
          ensuring national consistency. Responses from Regions, States, POTWs, and
          other stakeholders indicated that EPA Headquarters was not setting pretreatment
          program direction or providing sufficient technical guidance and training.

          EPA devotes time and resources to developing its customer relationships, such as
          sponsoring national conferences, but it has not assigned the resources necessary to
          complete the tasks that could address some customer needs. According to EPA’s
          February 1999 Introduction to the National Pretreatment Program, Headquarters
          responsibilities include overseeing program implementation at all levels,
          developing and modifying program regulations, developing policies to clarify and
          further define the program, and developing technical guidance for program



                                          21
implementation. EPA began projects to further develop and modify its
pretreatment program, but in recent years has not devoted sufficient resources to
complete the projects, as shown by the following examples. For the period, 1995
to 2000, EPA did not request additional funding for its pretreatment program.

•      In 1995, the Office of Water developed options and a basic plan in response to
       the Association of Metropolitan Sewerage Agencies’ (AMSA’s) concern of
       excessive administrative burdens. EPA issued its proposed streamlining rule
       in 1999 but had still not finalized it by 2004.

•      EPA issued guidance in 1987 to assist POTWs to develop local limits. In
       1997, the Agency started work to revise this guidance because the 1987
       inhibition and removal efficiency data did not reflect the current diversity of
       POTW wastewater treatment utilized. The guide was finalized in July 2004.

•      EPA formed a workgroup in 2000 to address industrial user discharging to
       POTWs without approved pretreatment programs. The group started to
       develop guidance 2001, but that work has been put on hold.

•      Updating guidance on distinguishing industries subject to New Source versus
       Existing Source standards has also been put on hold. Industries that
       significantly change their process may be considered New Sources and need
       to meet stricter discharge limits.

The following table summarizes responses from 10 Regions and 6 States to an
open-ended question on how EPA could improve its pretreatment program.

                Table 4.1: Regional and State Recommendations for Improvement

                     Recommended Improvement                           Region   State
    More resources                                                       9       2
    Consistency in interpreting rules/regulations                        4
    Need Headquarters leadership on categorical determinations           3       4
    Finalize various guidance/regulations                                3       3
    Create database/Permit Compliance System modernization               3
    Provide more training opportunities                                          3
    Review program for new/developing issues                                     2
    Increase oversight and assistance on core requirements               2
    Develop pretreatment program measures                                2
    Improve communication among Headquarters offices                     2
    Develop a pleadings policy, higher administrative authority          1
    Focus on loading/local limits of non-conservative pollutants         1
    Identify criminal violations and support criminal investigations     1




                                            22
The 2004 Baldrige criteria provide a description of leadership as setting
directions, values, and expectations while balancing the needs of all stakeholders.
The Regional and State responses stressed a need for national consistency.
National consistency was also identified as a priority goal by Regional and State
pretreatment coordinators during the 2003 EPA National Pretreatment
Conference.

Better Information and Analysis Needed

EPA does not have the information systems necessary to effectively measure,
analyze, demonstrate, and improve program performance. EPA collects influent,
effluent, and biosolids data, but it is not uniformly entered into EPA’s Permit
Compliance System (PCS). Also, because EPA has not established results-based
measures for its pretreatment program (as noted in the next section), data
collection and systems are not geared toward providing EPA with an analysis of
program progress. Without sufficient data to show the gains made by its
pretreatment program, EPA leaves this program vulnerable to future budget cuts.

Our efforts to utilize PCS and annual pretreatment reports prepared by POTWs to
determine trends in discharges of metals to and from 10 POTWs were largely
unsuccessful (see Appendix F). We found that PCS was not a good source of data
for evaluating trends for industrial pollutants because: (1) only 3 of the 10
Regions input influent data into PCS; (2) NPDES permits did not always require
the monitoring of industrial pollutant in effluent; and (3) sludge data in PCS is
limited because EPA did not consider its entry as a high priority. (Some Regions
indicated that sludge data is entered into EPA’s biosolids database but even this
was not consistent.)

While the pretreatment regulations do not specifically require POTWs to include
sampling data in the annual pretreatment reports, the regulations do allow the
approval authority to require other relevant data. We found that 9 of our 12
selected POTWs were including data in their annual reports. However, these data
were not gathered or analyzed nationally. In our opinion, EPA is missing an
opportunity to gather and analyze data to evaluate the environmental results of the
pretreatment program. EPA could develop a statistical sampling plan and
coordinate with State approving authorities to request the required information.

More POTWs have NPDES requirements to monitor metals now than in 1991,
when EPA issued its Report to Congress on its assessment of the National
Pretreatment Program, as shown in Figure 4(A). All nine individual metals we
reviewed demonstrated significant increases between 1991 and the present. We
found that of the 1,890 POTWs covered by an approved pretreatment program,
72.5 percent had from 1 to 12 metals included as a monitoring requirement in
their NPDES permit. The reason for this increase can be due to a variety of
factors, it does not necessarily mean that the levels of these pollutants increased at


                                  23
         the POTWs. In some cases, a new pollutant limit in a permit may be due to the
         development of a new Water Quality Standard. In other cases, a new limit may
         be due to development of or changes to the permitting authorities’ procedures for
         imposing water quality based effluent limits.

                                  Metal Limits for POTWs with Approved
                                          Pretreatment Programs

             60%
             50%
             40%
             30%
             20%
             10%
              0%
                        M




                                                                                      M
                                  ER




                                                                           L
                                                                  Y
                                               E




                                                                                              ER



                                                                                                     C
                                                     D




                                                                          KE
                      IU




                                                                                    IU
                                                               R
                                            ID




                                                                                                     N
                                                     A
                                PP




                                                              U




                                                                                            LV
                                                                                  N
                    M




                                                                                                   ZI
                                           N


                                                   LE




                                                                      IC
                                                          RC




                                                                                LE
                   O




                                       YA
                            O




                                                                                          SI
                                                                      N
                  R



                            C




                                                          E




                                                                               SE
                                       C
               H




                                                         M
              C




                                                          1991        2004

          Figure 4(A): Comparison of Metal Limits in NPDES permits 1991 to 2004

         In addition to the problems we encountered with the PCS data, Regional
         responses indicated that PCS is not meeting their needs. Four of the 10 Regions
         said they use another data system to track their pretreatment programs, while 3
         others indicated they used other systems as well as PCS. This can result in
         duplication of information. EPA recently created a “modernized” version of PCS
         due to fundamental changes to the NPDES program. The modernized PCS will
         require the entry of more pretreatment data but it will be activity-based data.
         Additionally, full PCS modernization is in jeopardy due to funding shortages and
         implementation date slippage, according to OIG Report No. 2003-M-00014,
         EPA Should Take Further Steps to Address Funding Shortfalls and Time
         Slippages in Permit Compliance System Modernization Effort, May 20, 2003.
         A later report from October 2003 notes that EPA has delayed modernization of
         PCS to fiscal year 2006.

Performance Measures Need to Be Results-Based

         Measuring the impact of a program is essential to documenting program
         performance to support continued funding and identify future needs. EPA’s
         pretreatment measures have been activity-based to show compliance with
         program regulations or that compliance mechanisms are in place, rather than
         noting the impact of the program on the environment. EPA is aware of the
         limitations of its pretreatment program measures and has been evaluating other
         measures since



                                                   24
1994, but has found it difficult to develop results-based measures for the
following reasons:

•   Data are often limited or inconsistently collected or maintained.
•   Factors such as production, plant openings/closings, change in process or
    material, etc., can affect industrial discharge.
•   Pipe corrosion may be the source of copper rather than industry.
•   Measures such as biosolids may not apply to all POTWs.
•   Reduction of loadings may not exclusively be due to pretreatment activities.

GPRA and the President’s Management Agenda state agencies need to be
accountable and provide evidence on program results to ensure continued
existence. Developing results-based measures may be complicated, as indicated
above, but EPA needs to develop these measures to the best of its ability and
disclose any limitations. EPA cannot hope to support the funding it needs for its
pretreatment program without showing program results. Also, EPA cannot
determine program direction without adequate measures.

EPA partly funded a workgroup of Agency, State, industry, POTW, and AMSA
representatives to identify results-oriented measures of the performance of the
national pretreatment program. AMSA issued a report on the workgroup’s
conclusions on July 11, 1994. According to AMSA, the “most important
finding” is that adequate data does not exist in many locations to measure
pretreatment program performance using indicators of the quality of the ambient
environment. AMSA further stated that environmental measures appear useful in
assessing the aggregate performance of all water quality programs, but very few
true environmental measures can be linked unambiguously to elements of the
pretreatment program alone.

EPA’s Chief Financial Officer, Office of Policy, Analysis, and Accountability
hired a contractor in 2001 to examine EPA’s proposed pretreatment performance
metrics, and evaluate how well they measured actual program performance and
met GPRA objectives. In a May 19, 2002, memorandum, the contractor
concluded that: (1) the proposed performance measurement metrics had many
limitations, were not closely enough linked to environmental improvements, and
would not facilitate accurate assessments of the value of pretreatment nor enable
improved operational decisions; and (2) modernization of PCS appeared to
address many of the weaknesses in the current PCS.

In its 2004 Congressional Justification for its budget, EPA wrote that it was
developing a model to estimate pollutant reductions from POTWs, both with and
without pretreatment programs. As of April 2004, the National Pretreatment
Coordinator stated that a model was developed in 2003, but pretreatment data was
not included. Additional funding to include pretreatment data in the model was
not provided. The Coordinator also stated that there are so many factors to


                                 25
         consider in developing a pretreatment model that its accuracy would be uncertain.
         The Water Permits Division Director said that the pretreatment program’s impact
         on the environment would be evaluated as part of EPA’s watershed program.
         However, EPA will still have a challenge in showing results on a watershed basis
         because of a lack of quality and consistent data. Regardless, we believe that EPA
         also needs to evaluate the pretreatment program on its own as well as part of a
         watershed, since the watershed approach will not assist the Agency in identifying
         specific industrial problems and trends.

Conclusion

         The pretreatment program is at risk of losing the gains it has made if EPA does
         not become more vigorous in setting national policy and developing program
         measures that can adequately document the program’s progress. While EPA has
         made attempts to update its program, much of this work has not been finalized.
         Management is planning to finalize a portion of the streamlining rule and the
         local limits guide, but the development of results-based measures specifically for
         the pretreatment program has been discarded in favor of overall, watershed
         measures. However, this approach also will have a challenge documenting results
         because of limited data, and it will not enable EPA to measure progress or
         identify problems related to specific pollutants or industries. Lack of resources
         was given as the reason for not accomplishing all the tasks, yet EPA did not
         determine the level of resources it needed, then ask for additional funding for its
         pretreatment program.

         Considering the fact that the pretreatment program has not made significant
         progress in the past 10 years, now is the time for EPA to take stock of its
         pretreatment program. It needs to develop goals on how to further reduce toxic
         transfers to POTWs and the risk associated with those pollutants so that it can
         fully realize Congress’ goal - the elimination of toxic pollutants to the nation’s
         waters. The appropriate level of resources needed to do this should be identified
         and requested.

Recommendations

         We recommend that the Acting Assistant Administrator for Water direct staff to:

             4.1   Develop a long-term strategy to identify the data it needs for developing
                   pretreatment results-based measurements; determine the resources
                   necessary to carry out the strategy; and gain the support of other Agency,
                   State, and POTW staff to carry out the strategy. Provide milestones for
                   the development of this strategy to the OIG, and if this strategy cannot be
                   completed with 90 days of report issuance, provide quarterly progress
                   reports to the OIG until results-based measures are developed.



                                            26
          4.2   Set milestones for finalizing the streamlining rule, local limits, and other
                applicable guidance. Provide milestone dates to the OIG, and if the
                products are not completed within 90 days of report issuance, provide
                quarterly progress reports to the OIG until the products are finalized.

         4.3    Evaluate the resource needs of the pretreatment program to enable it to
                make further reductions in industrial waste transfers and risk. The
                additional funding should be requested in the next funding cycle.

Agency Comment and OIG Evaluation

         Before it can develop pretreatment results-based measures, the Office of Water
         plans on obtaining further information on data and data systems. Using the PER
         Process, the Office of Water is compiling information regarding current data
         systems at the Regional/State level so it can identify inaccurate data and target
         data correction in PCS as part of the transition process to the new Integrated
         Compliance Information System. Once these activities are complete, the Office
         of Water will determine a long-term strategy based on data availability and
         resources, which should assist in developing pretreatment results-based measures.

         The Office of Water stated that it was making progress in accordance with
         schedules to finalize the various, still outstanding documents reported in the
         finding. It is also currently developing its Strategic Plan for the coming
         triennium. The PER effort will help the office evaluate whether or not the
         resources allocated to implementing the pretreatment program are sufficient.
         Based on the information, appropriate action would be taken.

         The Office of Water also noted that other EPA and Regional offices that
         participate in the pretreatment program and related activities plan their own
         strategic resource evaluations and may recognize their own priorities.

         We commend the Office of Water for issuing the Local Limits Development
         Guidance, one of the documents which had been outstanding during our review.
         We revised our recommendations to request the milestones for completion of
         other actions and for quarterly progress reports to keep us apprised of actions not
         completed within 90 days of report issuance.

         While Headquarters may not directly determine Regional resource levels, it does
         have powerful, indirect influence. Regional staff told us that their offices usually
         take the lead from Headquarters when determining the resources to allocate to a
         program. If Headquarters places less emphasis on a program, the Regions will
         follow.




                                          27
28
                                                                                 Appendix A


                Details on Scope and Methodology

National Results Based on TRI Data

      The Toxic Chemical Release Inventory System (i.e., TRI) is a database that contains
      information on releases of toxic substances submitted by certain industry groups under
      Section 313 of the Emergency Planning Community Right-to-Know Act of 1986.
      Facilities that report to TRI must: (1) fit a specific standard industrial classification
      category; (2) have 10 or more full-time employee equivalents; and (3) manufacture or
      process designated pounds of listed chemicals during the calendar year except for certain
      persistent bioaccumulative toxic chemicals. The TRI list for 2001 included more than
      600 chemicals and 30 chemical categories. We did not conduct an overall test of
      reliability of the TRI data system. Therefore, we do not express, an opinion on TRI data
      reliability in general.

      In order to develop the national trends reported in Chapter 2, we obtained data from the
      Computer Specialist/Database Administrator of the TRI Division who provided us with
      two files based on TRI data contained within Envirofacts from industries identified by
      their 4-digit Standard Industrial Classification codes associated with the original
      industries reporting to TRI. The two sets of data included POTW transfer information
      from these industries, one for the reporting years of 1991 through 2001 and the other
      from 1987 to 2001. This information was initially used to identify general trends in
      industrial transfers of pollutants to POTWs. Using EPA’s Risk Screening Environmental
      Indicators Model, we developed trends in the risk associated with the pollutants
      transferred to POTWs since 1987 and for pollutants added since 1995. Pollutants that
      had been delisted were not included in our calculations. Removal coefficients for POTW
      removal rates were identified and applied to each of the listed TRI chemicals. The oral
      ingestion toxicity weight was obtained and the related risk was calculated.

Case Study Review

      To assess the impact of industrial user discharges to POTWs and the difference in how
      POTWs oversee their industrial users, we prepared case studies of 10 POTWs. Before
      selecting individual POTWs, we selected States and Regions with the highest transfers of
      pollutants to POTWs. Using TRI, we identified the top 10 industries in the nation
      transferring pollutants to POTWs. We identified the top five States in the nation in
      pounds of pollutants transferred to POTWs and number of industrial users.



      Our 10 case study POTWs included 6 POTWs with approved pretreatment programs and


                                              29
     4 without. We selected POTWs with approved programs by size as we defined based on
     plant flow in millions of gallons per day.

                    Large:           Over 10 millions of gallons
                    Medium:          5 - 10 millions of gallons
                    Small:           Less than 5 millions of gallons

     POTWs without approved programs would be small because regulations require those
     with a design flow of greater than 5 millions of gallons and that receive industrial waste
     to have an approved pretreatment program. We also selected some POTWs based on
     Regional recommendations. The following table identifies our selected POTWs.


                                           Selected POTWs with
                                      Approved Pretreatment Programs

                                                                 State
                        POTWs                  POTW Size     Authorization?   Region
             Brenham, Texas                       Small            Yes          6
             San Marcos, Texas                   Medium            Yes          6
             Passaic Valley Sewerage              Large            Yes          2
             Commission - New Jersey
             Greensburg, Indiana                  Small            No           5
             Orangetown, New York                Medium            No           2
             Indianapolis, Indiana                Large            No           5

                                          Selected POTWs without
                                      Approved Pretreatment Programs

                                                                 State
                        POTW                   POTW Size     Authorization?   Region
             Hutchinson Minnesota                 Small           Yes           5
             Northfield, Minnesota                Small            Yes          5
             Delphi, Indiana                      Small            No           5
             Hobart, New York                     Small            No           2



Differences in POTW Pretreatment Programs

     To determine the differences in how POTWs with and without approved pretreatment
     programs oversee their industrial users, we used a combination of questionnaires and site
     visits. We mailed questionnaires to nine POTWs with and nine without approved
     pretreatment programs. Three POTWs from both categories were selected from Regions
     2, 5, and 6. POTWs with approved programs were selected from EPA’s PCS, which
     designates a POTW’s pretreatment program status. POTWs without approved programs

     were randomly selected from various documents prepared by State agencies that had


                                                  30
Categorical Industrial Users discharging into their systems.

We developed our questionnaire using EPA’s 1999 Introduction to the National
Pretreatment Program, Chapter 4, as a model for how an approved pretreatment program
should be administered. Our model included the following elements of a pretreatment
program:

•   Industrial user identification,
•   Local limits,
•   Control mechanism used (permits, etc.),
•   Inspection & sampling,
•   Enforcement, and
•   Reporting.

Six of the nine POTWs (66 percent) from both the approved programs as well as non-
approved program categories responded to our questionnaire. We obtained information
during our site-visits from interviews with plant officials. We reviewed NPDES permits
of the 10 POTWs visited to determine pretreatment program requirements.

The following table identifies the POTWs (listed by size) that completed our
questionnaire:

                                            POTWs with
                                   Approved Pretreatment Programs

                                                              State
                         POTW                   Size      Authorization?   Region
              Chemung County, New York          Large          No            2
              Racine, Wisconsin                 Large          Yes           5
              Jamestown, New York              Medium          No            2
              Wooster, Ohio                    Medium          Yes           5
              Sulphur Springs, Texas           Medium          Yes           6
              Sapulpa, Oklahoma                 Small          Yes           6

                                          POTWs without
                                   Approved Pretreatment Programs

                                                              State
                         POTW                   Size      Authorization?   Region
              Rouses Point, New York            Small          No            2
              Herkimer, New York                Small          No            2
              Maple Shade, New Jersey           Small          Yes           2
              Shelby, Ohio                      Small          Yes           5
              Shiner, Texas                     Small          Yes           6
              Taylor, Texas                     Small          Yes           6

To assess Regional/State oversight of pretreatment programs, we sent two-part


                                          31
     questionnaires to all 10 EPA Regions and 6 selected States: Indiana, Minnesota, New
     Jersey, New York, Ohio, and Texas. Part A of the questionnaire requested information
     on resources, priorities, data systems, training, and suggestions for program
     improvement, while Part B requested information on Regional/State oversight of towns
     that do not have approved pretreatment programs. We used Chapter 4 of EPA’s 1999
     Introduction to the National Pretreatment Program as a model of how a Control
     Authority should administer an approved pretreatment program. All 10 Regions and 6
     States responded to Part A. For Part B, all the eight Regions that act as a Control
     Authorities responded. Regions 4 stated they do not have this responsibility. Region 7
     stated that even though they are technically the Control Authority of Kansas, the State
     performs all the functions under a memorandum of understanding; therefore, a response
     from the Region to Part B was not provided. All the five States that act as Control
     Authorities responded; New York stated they do not do so.

Program Measures

     To assess the Office of Water’s efforts to develop program measures, we interviewed
     EPA Headquarters and Regional staff, reviewed current and past GPRA measures, and
     reviewed contractor reports evaluating established and proposed measures.

Program Maintenance and Future Needs

     In evaluating how well EPA is maintaining pretreatment program gains and addressing
     future needs, we used criteria from GPRA, the 2002 President’s Management Agenda,
     Malcolm Baldrige National Quality Award program, and EPA.

     EPA’s 1999 Introduction to the National Pretreatment Program, Chapter 2, provided a
     description of the roles and responsibilities of EPA, States, POTWs, and industrial users
     in implementing the pretreatment program.

     To assess program maintenance, we sent questionnaires regarding resources, priorities,
     and program needs to all the Regions and six States, all of which responded. We also
     interviewed pretreatment staff at Regions 1, 2, 5, and 6, and selected State agencies and
     POTWs.




                                             32
                                                                                 Appendix B

             Basic Pretreatment Program Elements

Identifying Industrial Users

      As part of program development and maintenance, POTWs are required to identify and
      locate all industrial users that might be subject to the pretreatment program. POTWs
      must know who is discharging and what is being discharged into the sewer systems so
      that adequate control procedures can be implemented. POTWs must classify their
      industrial users (e.g., significant or categorical industrial user) so that appropriate
      regulations are applied. TRI now reports specifically on transfers of metals to POTWs,
      which makes it useful to Agency, State, and POTW staff, and it is available on-line.
      Details on issues related to identify industrial users are in Chapter 3.

Local Limits

      To protect its operations and ensure that its discharges comply with State and Federal
      requirements, a POTW will develop specific discharge limits for its local industrial or
      commercial facilities. Eighty-three percent of the POTWs with an approved program had
      developed approved local limits compared to 60 percent of the POTWs without approved
      programs. The 60 percent represents all the POTWs that had pretreatment program
      requirements included in their NPDES permits by State agencies.

Permits

      Pretreatment regulations require that significant industrial users be controlled by an
      individual permit or other equivalent individual control mechanism, which will include
      specific discharge limits, and should be enforceable when not followed. Permits are
      transferable with restrictions. All our sampled 12 POTWs with approved programs
      issued individual permits to significant industrial users, while only 50 percent of the
      POTWs without approved programs issued permits. State Agencies issued individual
      permits or Section 308 enforcement letters for POTWs without approved programs. In
      some instances, such as in Minnesota, the State agency issued permits to categorical
      industrial users while the POTW issued permits to other significant industrial users.
      None of the POTWs without pretreatment programs that issued permits stated their
      permits were transferable, while 6 of the 12 POTWs with approved programs stated their
      permits were.

Inspection and Sampling

      Inspections and sampling provide a means of verifying that the industrial user is
      following its permit conditions. Documentation to support enforcement actions can be
      obtained during inspections. Pretreatment regulations require POTWs with approved


                                             33
     pretreatment programs to inspect and sample significant industrial users annually at a
     minimum. There are no inspection and sampling requirements for POTWs without
     approved pretreatment programs. However, we asked the POTWs without approved
     programs how often they inspect and sample for comparison purposes. All the POTWs
     with approved programs said they sampled and inspected at least annually. All the
     POTWs without approved programs said they inspected their industrial users but only 70
     percent described formal, annual inspection programs. Only 50 percent said they
     sampled on an annual schedule. Regional offices and State agencies will act as control
     authorities for POTWs without approved pretreatment programs, but not all the Regions
     and States were able to carry out inspection and sampling responsibilities due to the large
     universe of significant industrial users spread out over a State and limited staffing.

Enforcement

     Enforcement Response Plans establish a framework for POTWs to investigate and
     respond to instances of industrial user noncompliance in a timely, fair, and consistent
     manner, and are required for POTWs with approved programs. Eleven of the 12 POTWs
     with approved pretreatment programs stated that they had approved Enforcement
     Response Plans, while the remaining one said its plan was under modification. We
     reviewed annual pretreatment reports to determine whether POTWs were escalating
     enforcement actions (e.g., administrative orders, fines, etc.). We found that the two
     large-sized POTWs (with approved programs) showed evidence of escalating
     enforcement but our medium to small-sized POTWs varied in their efforts. POTWs
     without approved programs are not required to develop Enforcement Response Plans and
     may not have authority to take formal enforcement actions. This issue is discussed in
     Chapter 3. Examples are in Appendix D.

Reporting

     Annual pretreatment reports should include at a minimum: (1) a list of all the POTW’s
     industrial users; (2) a summary status of industrial user compliance; (3) a summary of
     compliance and enforcement activities; (4) a summary of program changes; and (5) any
     other relevant information requested by the approval authority. All the POTWs with
     approved programs stated that they submit annual pretreatment reports. We were able to
     obtain most of the reports over a 10-year period for the six POTWs with approved
     programs visited and found the reports contained the minimum required information.
     Seven of the POTWs without approved programs stated they also submit annual
     pretreatment reports. We do not know what information was contained in all these
     reports. However, we did review annual pretreatment reports from two Minnesota
     POTWs without approved programs and found these reports as complete as those for
     POTWs with approved programs.




                                             34
                                                                                                     Appendix C

           Oversight of Industrial Users by POTWs
        Without Approved EPA Pretreatment Programs

                                    (With State Pretreatment Programs)
    POTWs              Identify      Approved                                                           Receiving
   with State         Industrial      Local       Control        Inspect        Sample          PT       Water on
   Programs             Users         Limits     Mechanism         SIUs          SIUs          Report   303(d) List
 Herkimer,                Y               Y      Permit        Annual         Weekly             Y          Y
 New York *
 Rouses Point,            Y               Y      Permit        Semi-          Not at all         Y          Y
 New York                                                      annual
 Hutchinson,              Y               Y      Permit        Qtrly          Annual             Y          N
 Minnesota
 Northfield,              Y               Y      Permit        Varies,        Varies,            Y          N
 Minnesota                                                     more than      more than
                                                               annual         annual
 Shiner,                  Y               Y      Sewer Use     Semi-          Semi-              Y          N
 Texas                                           Ordinance     annual         annual
 Taylor,                  Y               Y      Sewer Use     Annual         Only if            N          N
 Texas                                           Ordinance                    User fails
                                                                              self-sample




                                         (No Alternative State Programs)
    POTWs              Identify      Approved                                                           Receiving
 Without State        Industrial      Local       Control        Inspect        Sample          PT       Water on
   Program              Users         Limits     Mechanism         SIUs          SIUs          Report   303(d) List
 Maple Shade,             Y               N      Permit        Semi-          Annual             Y          Y
 New Jersey *                                                  annual
 Hobart,                  N               N      Developing    No formal      No sample          Y          Y
 New York *                                      Sewer Use     process
                                                 Ordinance
 Delphi,                  N               N      Sewer Use     “Not often     “Not often         N          Y
 Indiana *                                       Ordinance     enough”        enough”
 Shelby,                  Y               N      Sewer Use     No formal      No formal          N          Y
 Ohio                                            Ordinance     process -      process -
                                                               developing     developing
                                                               in 2004        in 2004


 * Experienced pass through/interference within past 2 years of responding to questionnaire.

PT:        Pretreatment
SIU:       Significant Industrial User




                                                          35
36
                                                                                  Appendix D


                  Examples of Enforcement Efforts

Our review of enforcement efforts by our six selected POTWs with approved programs follows:

       •   Passaic Valley Sewerage Commission, New Jersey, and Indianapolis, Indiana, the
           two large-sized POTWs, issued a variety of enforcement actions from Notices of
           Violation to formal orders and fined violators.

       •   Orangetown, New York, a medium-sized POTW, issued at least one consent order
           and a penalty from 1996 to 2002.

       •   From 1994 to 2002, San Marcos, Texas, our other selected medium-sized POTW,
           issued only Notices of Violation, a first level response to violations of exceeding
           limits and reporting. No notices were issued during 1995, 1997, or 2000. The 2002
           State audit cited deficiencies that prevented the POTW from identifying violations.

       •   From 1993 to 2002, Greensburg, Indiana, a small-sized POTW, issued only one
           Administrative Order but numerous Notices of Violation. Starting in 1996, the
           POTW imposed fines on violators. The Greensburg pretreatment coordinator said
           that fines made a difference in getting companies to comply.

       •   From 1993 to 2002, the only enforcement actions issued by Brenham, Texas, a small-
           sized POTW, were Notices of Violation during 1993, 1994, and 1998. The 2002
           State audit cited deficiencies in the POTW’s program, which prevented it from
           identifying and taking more formal enforcement actions.

Two Minnesota POTWs without approved programs submitted annual pretreatment reports that
we reviewed to determine whether violations were identified and enforcement action taken.

       •   Northfield reported violations from 1994 to 2001 but never reported taking any
           enforcement action.

       •   Hutchinson did not identify any violations from 1993 to 2001. In 1998, Hutchinson
           did report that its biosolids had a “nickel problem,” but the POTW did not identify
           the problem as a violation. The POTW did indicate that a letter was written to the
           industrial user responsible for the problem and the industrial user addressed the
           problem.

The EPA Region 5 pretreatment coordinator stated that Northfield should be addressing
violations with enforcement actions. However, the POTW’s role in taking enforcement actions
is not clearly stated in its NPDES permit. Even though Minnesota has been delegated for


                                              37
administering the pretreatment program since 1979, it lacks state pretreatment regulations that
could require a non-approved POTW to take enforcement. Minnesota was working on these
regulations during our visit in 2003.




                                               38
                                                                                                   Appendix E

                        Gaps in Industrial User Oversight

                                                  Pretreatment Program Activity

                                              Permit or Enforceable            Annual
       State/              Identify                Document                  Inspection                Annual
       Region           Industrial User          Issued to SIUs                of SIUs                 Sample

 Region 2          When information comes     Section 308               Inspect CIUs once        Sample 7-10
                   to their attention         enforcement letter        every 5 years. SIUs      CIUs annually
                                                                        suspected of pass        (includes
                                                                        through/interference     approved)
                                                                        as resources allow

   New Jersey      Ongoing process            Individual industrial     Annual inspections of    Annual samples
                                              user permit               SIUs                     of SIUs

   New York        Not a control authority. Requires POTWs to develop “mini-pretreatment” program through
                   NPDES permit. Gap: Those POTWs not under mini-pretreatment program. About 45-50 of
                   universe of 70 have mini-pretreatment program.

 Region 5          Defer to States            Rely on States            Rely on States           No sampling

   Minnesota       Rarely – only if           Individual permit, CIUs   CIUs once every          “Rarely”
                   information given to                                 5 years; SIUs “rarely”
                   State

   Ohio            Last update early 1990s;   Individual permit, all    Inspect SIUs every       Semiannually
                   every year, permit 10-15   SIUs                      2 years, some
                   new industrial users                                 annually

   Indiana         Last conducted in 1997     Individual permit         Inspections -            “0”
                                                                        not routinely

 Region 6          “No current updates”       Section 308               “Rarely” – when pass
                                              enforcement letter and    through/interference
                                              Administrative Order      suspected

   Texas           Updated as information     Section 308               Inspect CIUs on          “As necessary”
                   becomes available          enforcement letter        criteria and
                                                                        compliance – inspect
                                                                        other industrial users
                                                                        as necessary


CIU:      Categorical Industrial User
SIU:      Significant Industrial User




                                                         39
40
                                                                                                    Appendix F

                        POTW Industrial Pollutant Trends
                             POTWs With Approved Pretreatment Programs

       POTW                         Influent                        Effluent                      Sludge

Passaic Valley Sewerage    Of 10 pollutants:                Of 13 pollutants:            Of 7 pollutants:
Commission, New Jersey     7 showed decreases               7 showed decreases           1 showed an increase
                           2 remained stable                2 remained stable            2 showed a decrease
                           1 showed no trend                4 showed no trend            1 remained stable
                             Source: POTW records             Source: POTW records       3 showed no trend
                                                                                           Source: POTW records

Orangetown, New York       1 pollutant remained             Of 14 pollutants:            Of 10 pollutants:
                              stable                        5 remained stable            1 showed an increase
                             Source: Annual                 9 showed no trend            1 showed a decrease
                             Pretreatment Reports             Source: Annual             8 showed no trend
                                                              Pretreatment Reports         Source: Annual Sludge
                                                                                           Report

Greensburg, Indiana        State does not require           Of 9 pollutants:             PCS had insufficient data.
                           POTW to submit data.             5 remained stable
                                                            4 showed no trend
                                                              Source: PCS

Indianapolis, Indiana      Belmont Plant -                  Belmont Plant -              Belmont Plant -
                           Of 6 pollutants:                 No data                      Of 3 pollutants:
                           1 remained stable                                             2 showed decrease
                           5 showed no trend                Southport Plant -            1 showed no trend
                                                            Of 6 pollutants:
                           Southport Plant -                4 remained stable            Southport Plant -
                           Of 6 pollutants:                 2 showed no trend            No data
                           2 remained stable                                             (POTW does not
                           4 showed no trend                  Source: Annual             land apply sludge)
                                                              Pretreatment Report
                             Source: Annual                                                Source: Annual
                             Pretreatment Report                                           Pretreatment Report

Brenham, Texas             Of 19 pollutants:                No PCS data for industrial   PCS had insufficient data
                           1 remained stable                pollutants
                           5 remained stable,
                              below detection levels
                           8 showed no trend
                           5 showed no trend,
                              below detection levels
                             Source: Annual
                             Pretreatment Report

San Marcos, Texas          Of 19 pollutants:                No PCS data for industrial   PCS had insufficient data
                           12 remained stable               pollutants
                           6 showed no trend
                           1 showed no tend,                19 pollutants remained
                              below detection levels           stable below detection
                             Source: Annual                    levels
                             Pretreatment Report              Source: Annual
                                                              Pretreatment Report




                                                       41
                                POTWs Without Approved Pretreatment Programs

           POTW                         Influent                       Effluent                        Sludge

 Hobart, New York              Not required to submit         No PCS data for industrial   Does not land apply
                               data.                          pollutants.                  sludge.

 Delphi, Indiana               Not required to submit         No PCS data for industrial   Does not land apply
                               data.                          pollutants.                  sludge.

 Hutchinson, Minnesota         Not enough samples to          No trend for 3 industrial    No trend for 4 industrial
                               determine a trend.             pollutants.                  pollutants.
                                 Source: Annual                 Source: PCS                  Source: PCS
                                 Pretreatment Report

 Northfield, Minnesota         Not enough samples to          No trend for 5 industrial    No trend for 4 industrial
                               determine a trend.             pollutants.                  pollutants.
                                 Source: Annual                 Source: PCS                  Source: PCS
                                 Pretreatment Report




Industrial pollutants include metals and other pollutants discharged from a POTW’s industrial users.




                                                         42
                                                                                    Appendix G

                                 Agency Response
MEMORANDUM


SUBJECT:       Draft Evaluation Report:
               “EPA Needs to Reinforce Its National Pretreatment Program”

FROM:          Benjamin H. Grumbles
               Acting Assistant Administrator

TO:            Dan Engelberg
               Water Issues Product Line Director
               Office of Program Evaluation
               Office of Inspector General


        Thank you for your memorandum dated July 19, 2004, transmitting the draft report on
the subject evaluation, No. 2002-0933. We appreciate your careful and thoughtful study of the
National Pretreatment Program, and we appreciate the opportunity to provide you with the
following comments. Your findings highlight that Publicly Owned Treatment Works (POTWs)
which administer Pretreatment Programs enjoy increased National Pollutant Discharge
Elimination System (NPDES) Permit compliance as well as environmental quality performance,
as opposed to POTWs without approved Pretreatment Programs. For example, 17 percent of the
surveyed POTWs with approved pretreatment programs experienced a pass through or
interference event, while in contrast 40 percent of the surveyed POTWs without a pretreatment
program experienced such an event. This could certainly serve as an indicator of the
environmental benefits derived from the pretreatment program.

        The Office of Water is in the process of conducting the most comprehensive assessment
of the NPDES Program in its 30 year history, as part of the Permitting for Environmental Results
(PER) Strategy. The Program Integrity component of the PER Strategy, led by the Water
Permits Division, is designed to help address several of the recommendations in this draft report.
The PER Strategy focuses on the development and implementation of tools to continually assess
NPDES program performance, to obtain the necessary information for making adjustments to
program activities, to correct weaknesses, and to ensure continued success. As part of this effort,
EPA is compiling this information into EPA Regional and State Profiles which tell the NPDES
story.

       I am pleased to respond to the draft report’s specific recommendations. In addition, an
attachment to this memorandum provides some clarifications.

Recommendation 1 (Report Recommendation 3.1):


                                                43
Finalize [its] guidance on regulating industrial users discharging to a POTW without an
approved program.

        We agree that guidance on tracking, overseeing, and controlling Significant industrial
users (SIUs) is important to ensure achievement of the Pretreatment Program’s goals. From the
EPA Regional and State Profiles, we are gathering information on the diverse tools that States
and EPA Regional offices currently use to oversee and control these SIUs, including reporting
and tracking methods. We believe that the resulting toolbox, together with the development of
standardized accounting (e.g., number, location, and industrial sectors) of these SIUs will assist
future oversight in this area.

Recommendation 2 (Report Recommendation 3.2):
Identify Regions and States designated as control authorities that are not meeting minimum
pretreatment requirements to identify, inspect, sample, and enforce against (when appropriate)
all significant industrial users. If control authorities cannot meet the minimum standards,
delegate the responsibilities to POTWs in the NPDES permit if the POTW can carry out these
duties.

        Via the PER Profiles, we are documenting information on the EPA Regions and States
Pretreatment Program oversight capabilities, as well as information regarding efficiencies and
innovations used to achieve workload efficiency and maintain a high level of productivity. EPA
does not delegate its own responsibilities with respect to pretreatment to POTWs. Rather, EPA
Regions (and, in some cases, States with authorized pretreatment programs) require POTWs to
undertake certain activities as a specific condition of the POTW’s NPDES permit. These
requirements may include development of programs to control the contribution of industrial
users to the POTW by requiring compliance with EPA-promulgated pretreatment standards.
Such programs must include certain inspection and sampling requirements. In accordance with
the NPDES and Pretreatment regulations (40 CFR 122 and 123, and 403, respectively), decisions
on individual POTW NPDES permitting requirements are the responsibility of the permitting
authority, determined on a case-by-case basis. The pretreatment regulations do not require EPA
to inspect or sample SIUs.

Recommendation 3 (Report Recommendation 3.3):
Require POTWs without approved programs that are conducting oversight responsibilities to
report violations and enforcement action taken to its control/approval authority.

        NPDES regulations already address reporting of violations. 40 CFR 122.21(j)(6)(ii)
currently requires all POTWs, in their NPDES Permit Application, to provide to the permitting
authority a list of the SIUs and whether problems at the POTW have been attributed to an SIU in
the past four and one-half years. Where the EPA Region or State is the Control Authority, 40
CFR 403.12(g) requires industrial users subject to categorical pretreatment standards to provide
periodic reports on their compliance to the Control Authority and that the industrial user must
notify the Control Authority within 24 hours when sampling indicates a violation of the
applicable standards. In accordance with the NPDES and Pretreatment regulations (40 CFR 122
and 123, and 403, respectively), decisions on individual POTW NPDES permitting requirements,


                                                44
particularly any increase in reporting beyond what is already imposed by the regulations, are the
responsibility of the permitting authority, determined on a case-by-case basis. Finally, POTWs
without approved programs would have regulatory authority to take enforcement action only if
authorization is provided by the State Codes.

Recommendation 4 (Report Recommendation 3.4):
Promote training opportunities to all POTWs with industrial users discharging to their systems
and offer on-line as well as classroom training.

        We agree that training is key to maintaining Pretreatment Program knowledge. At our
July 2004 EPA-States Pretreatment Coordinators meeting, we discussed the need for improved
publicity of available training and venues, including improving our Water Permits Division
website. We have historically partnered with the Water Environment Federation for training
workshops, offered additional workshops through States offices, and also awarded a grant to the
California State University at Sacramento to develop a wastewater training series
(http://www.owp.csus.edu/wastewater.htm). Working with the Office of Compliance and the
National Enforcement Training Institute, we launched an online (and CD-ROM) training course
in July 2003 directed to inspectors, titled “CWA904: Clean Water Act/NPDES Computer-Based
Inspector Training,” which contains units specific to the Pretreatment program
(http://www.netionline.com/).

Recommendation 5 (Report Recommendation 4.1):
Develop a long-term strategy to identify the data it needs for pretreatment result-based
measurements; determine the resources necessary to carry out the strategy; and gain the support
of other Agency, State, and POTW staff to carry out the strategy.

        As your report notes, the Pretreatment Program has conducted several studies and
sponsored workgroups over the past decade for identifying performance-based measures for the
Pretreatment Program. Through the PER Process, we are compiling information regarding
current data systems used to store pretreatment data at the EPA Regional and State level. We
intend to use this information to identify inaccurate data and target data correction in PCS. Both
of these activities are crucial to facilitate migration and retention of data as we transition to the
Integrated Compliance Information System (ICIS). Once these efforts are complete, we believe
that we will be able to determine a long-term strategy based on data availability and resources,
which should ultimately assist us in developing pretreatment result-based measurements.

Recommendation 6 (Report Recommendation 4.2):
Develop measures on how industrial user operations have changed over the years.

         As required by the Clean Water Act, the Office of Water annually reviews existing
effluent guidelines and pollutant discharges from industrial facilities and investigates a variety of
technological, economic, and environmental issues that ultimately will help determine the need
for, or scope of, a revision for or development of an effluent guideline or a categorical
pretreatment standard for a particular industrial category. To the extent that changes in industrial
user operations drive our findings from these reviews, those changes would inform our planning


                                                 45
for the pretreatment program and the long-term strategy discussed in our response to
Recommendation 5.

Recommendation 7 (Report Recommendation 4.3):
Set milestones for finalizing the streamlining rule, local limits, and other applicable guidance.

       The Local Limits Development Guidance was finalized and made available on the EPA
website in July 2004. As for the other efforts, we continue to make progress in accordance with
schedules established by the Office of Water.

Recommendation 8 (Report Recommendation 4.4):
Evaluate the resource needs of the pretreatment program to enable it to make further reductions
in industrial waste transfers and risk. The additional funding should be requested in the next
funding cycle.

        The Office of Water, Office of Wastewater Management, is currently developing its
Strategic Plan for the coming triennium. As Strategic Goals and associated tasks are determined,
some of which are identified in the discussion above, we will evaluate the resources necessary to
complete those actions. In addition, the PER effort will help us evaluate whether or not the
resources allocated to implementing the pretreatment program are sufficient. Based on the
information, we would take appropriate action.

cc:    Nikki Tinsley




                                                46
                                                                              Appendix H

                                    Distribution

Acting Assistant Administrator, Office of Water (4101M)
Director, Office of Wastewater Management (4201M)
Director, Water Permits Division (4203M)
Associate Director, Water Permits Division (4203M)
Chief, Industrial Branch (4203M)
National Pretreatment Coordinator, Industrial Branch (4203M)
Agency Followup Official (the CFO) (2710A)
Agency Audit Followup Coordinator (2724A)
Associate Administrator for Congressional and Intergovernmental Relations (1301A)
Associate Administrator, Office of Public Affairs (1101A)
Audit Liaison, Office of Water (4101M)
Regional Administrators, Regions 2, 5, and 6
Inspector General (2410)




                                             47
